WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-8006

Antonio Jose Cooks Dean Naylor, et al.
(Petitioner) NV. (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Lam filing this waiver on behalf of all respondents.

© _Ionly represent some respondents. | am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

1 am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

    

Oo I am not presently a member of the Bar of this Cow
will be filed by a Bar member. (Filing Instruction

Attn: ‘Ee 1 First Street. NE,
Signature: ys

Date: 5/25/21

 

Should a response be requested. the response
[ail the original signed form to: Supreme Court,
Washington, D.C. 20543).

 

    

(Type or print) Name Wilford H. Stone

© wr. O Ms. O mrs. O Miss

Firm Lynch Dallas, P.C.

Address 526 Second Avenue SE, P.O. Box 2457

City & State Cedar Rapids, lowa / Zip 52406-2457
Phone (319) 365-9101 Email wstone@lynchdallas.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Antonio Jose Cooks

cc: Anamosa State Penitentiary
406 North High Street
Anamosa, IA 52205
